                Go Green!


 Consumes less energy   than car or air travel*




Semiannual Report to Congress
     Report #41 H 10/01/09 – 3/31/10
  ON THE COVER
Amtrak® Empire Builder®
                                                                      Message from the Inspector General



I
    am pleased to present the first Semiannual Report         	 We made a series of recommendations to improve
    to Congress since my appointment as Amtrak                  the effectiveness and efficiency of training and
    Inspector General in November 2009. In addition             employee development, focusing on developing and
to reporting on the Office of Inspector General’s (OIG)         implementing a corporate-wide training and employee
accomplishments during the six-month period ending              development strategy. This would ensure that training
March 31, 2010, I am identifying several significant            aligns with the overall corporate strategy and provides
challenges the OIG faces and the ongoing and planned            employees with the skills needed to assume leadership
actions we are pursuing to overcome the challenges.             roles in the future.
Significant Accomplishments                                   	 Management recently agreed with all of our
                                                                recommendations and provided a plan to implement
During this semi-annual reporting period, the OIG
                                                                them. It is important, however, for management to
continued to identify opportunities to reduce costs,
                                                                stay focused on making near-term improvements,
improve management operations, enhance revenue, and
                                                                because effective training and development practices
institute more efficient and effective business processes.
                                                                will be a key component of Amtrak’s ability to deliver
For example:
                                                                high quality services.
H	An OIG audit of the monthly on time performance
                                                              H	The Office of Investigations was instrumental in
    (OTP) bills and schedules from April 1993 through
                                                                securing convictions and restitutions in multiple theft
    April 2004 disclosed that CSX inaccurately billed
                                                                schemes. The courts ordered three former Amtrak
    Amtrak resulting in $20,052,519 in questioned costs.
                                                                employees to pay $183,863 in restitution to the
    This occurred because CSX did not comply with the
                                                                company for theft schemes involving train provisioning
    provisions of the operating agreement and routinely
                                                                and Fleet credit cards.
    submitted inaccurate billings.
                                                              Significant Challenges Facing the OIG
	 We also found that Amtrak did not perform a complete
  and through review to verify the OTP incentives billed      A critical element for ensuring that the OIG can effectively
  by CSX prior to approving them for payment. In our          perform the independent role mandated by the Inspector
  August 2008 report, we advised Amtrak the invoices          General Act of 1978, (IG Act) is a professional and
  from host railroads were not reviewed prior to              effective working relationship between the OIG and
  payment. Specifically, we reported that management          Amtrak management. Unfortunately, there was a
  controls were inadequate and ineffective and host           breakdown in this relationship prior to my appointment,
  railroads had consistently over billed Amtrak. Although     and rebuilding a professional and effective relationship
  management agreed to thoroughly review bills before         presents a number of challenges.
  making payment, nearly two years later Amtrak had
                                                              In response to the relationship breakdown, Amtrak
  not implemented our recommendations. We estimate,
                                                              management took a number of actions to limit or control
  based upon our audit work over the last 10 years, the
                                                              the OIG’s access to people and information and some of
  potential cost to Amtrak of not establishing effective
                                                              the actions were inconsistent with the spirit, and perhaps
  controls over the OTP incentive review and payment
                                                              the letter of the IG Act.
  process is about $5 million a year.
                                                              The seeds of the breakdown may have been planted in
	 We recommended that Amtrak recover the
                                                              management’s original expectations for the OIG when
  $20,052,519 from CSX and make a commitment and
                                                              the organization was formed, and in response, the
  provide a plan with milestone dates for implementing
                                                              manner in which the OIG implemented the IG Act. For
  corrective actions. Amtrak agreed that a thorough
                                                              example, when the OIG was formed in April 1989, it was
  review to verify OTP incentives billed by host railroads
                                                              designated as the “Department of Internal Affairs (Office
  should be performed prior to paying the invoice
                                                              of Inspector General)” and its authority was limited to
  and in April 2010 provided an action plan with
                                                              performing internal audits and investigations. Until
  milestone dates.
                                                              March 2010, when it was revised, the policy governing
H	Our October 2009 evaluation report, found that because      the relationship between Amtrak management and the
    Amtrak’s training program is largely decentralized, it    OIG was still listed under the heading “Office of Internal
    cannot ensure that training efforts are aligned to meet   Affairs (Office of Inspector General). Although the
    the company’s strategic needs. We also found that         Amtrak OIG conducted many independent and objective
    Amtrak needs to develop an effective corporate-wide       audits, evaluations, and investigations over the years,
    strategy for developing management employees to           much of its work, even up to the present, consisted of
    assume the future leadership roles in the company.        internal audit and review functions.
	                                                                                                                                Office of
                                                                                                                             Inspector General
                                                                                                                                     3
    Message from the Inspector General


                    In addition, the Amtrak OIG was heavily involved               to the mainstream of the IG community. The following
                    in management functions, including participating               organizational changes took effect on February 1, 2010:
                    extensively in management decision making, serving
                                                                                   H	I created a new position of Deputy IG and named Tom
                    as a first level of management controls, and helping
                                                                                     Howard, former Deputy IG at the National Aeronautics
                    to implement OIG recommendations for management.
                                                                                     and Space Administration, to fill that demanding job.
                    The OIG’s focus on internal review functions and its
                    heavy involvement in management functions were also            H	I also separated the previously consolidated roles of
                    inconsistent with the spirit, and perhaps the letter of the      Assistant Inspector General Investigations and OIG
                    IG Act.                                                          Counsel into two positions: An Office of General
                                                                                     Counsel is now led by the incumbent Colin Carrierre,
                    Moreover, this involvement likely led over time to mutual
                                                                                     and an Office of Investigations is led by Adrienne Rish,
                    confusion, conflict, and resentment about the respective
                                                                                     former Assistant Inspector General for Investigations
                    roles of management and the OIG that contributed to
                                                                                     at the U.S. Agency for International Development. This
                    the breakdown in relationships. While these factors do
                                                                                     change is consistent with roles and responsibilities
                    not justify management’s actions to deal with the OIG,
                                                                                     throughout the IG community and should improve our
                    hopefully, they provide an additional perspective about
                                                                                     effectiveness.
                    the underlying issues.
                                                                                   Second, on March 16, 2010, we issued a new strategic
                    Actions to Overcome Challenges
                                                                                   plan that sets forth the OIG’s priorities for promoting
                    I am pleased to report that Amtrak management and              positive change and assuring that our work supports
                    the OIG made significant progress overcoming these             the company’s efforts to achieve its strategic goals. It
                    relationship issues by (1) developing a new relationship       also includes an important OIG goal, which is to lead by
                    policy that fully meets the letter and spirit of the IG Act,   example by creating a model OIG organization.
                    (2) withdrawing the OIG from performing management
                                                                                   Third, to help us advance our strategic goal of
                    functions, and (3) rebuilding relationships among Amtrak
                                                                                   becoming a model OIG, I have engaged the National
                    and OIG managers and staff.
                                                                                   Academy of Public Administration (NAPA) to conduct
                    The Fiscal Year 2010 Consolidated Appropriations Act           an organizational assessment of the Amtrak OIG. This
                    (Public Law 111-117) also called for an Inspector General      assessment will help identify the OIG’s core organizational
                    (IG) who is a member of the Council of the Inspectors          strengths and weaknesses, and then develop specific,
                    General on Integrity and Efficiency to determine that          prioritized actions to improve OIG processes, policies,
                    the new relationship policy is consistent with the letter      and management practices.
                    and the spirit of the IG Act. Carl Clinefelter, Inspector
                                                                                   Fourth, it is the policy of the Amtrak OIG that our audit
                    General of the Farm Credit Administration, conducted an
                                                                                   work will comply with the 2007 revision of Generally
                    evaluation and determined: “the Corporation and the
                                                                                   Accepted Government Auditing Standards. To that end,
                    IG have agreed to a set of policies and procedures for
                                                                                   I have initiated a complete update of our audit and
                    interacting with each other that are consistent with the
                                                                                   evaluation policies and procedures. Until those new
                    letter and the spirit of the Inspector General Act of 1978,
                                                                                   policies and procedures are implemented, which we
                    as amended.”
                                                                                   expect to occur by September 30, 2010, I have instituted
                    Moreover, no instances of resistance to or restrictions on     interim controls to ensure that our work meets standards.
                    OIG oversight have occurred since my appointment in
                                                                                   In conclusion, I want to thank the Chairman, Board
                    November 2009. Also, all significant stakeholders I have
                                                                                   members, the president and other senior executives
                    talked to — the Board of Directors, the president and other
                                                                                   of Amtrak, and the House and Senate authorization,
                    senior executives of Amtrak; as well as Congressional
                                                                                   oversight, and appropriations committees, for the support
                    authorization, oversight, and appropriations committees,
                                                                                   and assistance they have provided in advancing our
                    OMB, GAO, and the Department of Transportation OIG
                                                                                   mutual objective of overcoming the challenges the Amtrak
                    — agree that an effective Amtrak OIG, operating in
                                                                                   OIG has faced and positioning the OIG to contribute even
                    the mainstream of the IG community, is an important
                                                                                   more to fostering improvements in Amtrak operations. I
                    oversight and accountability mechanism that contributes
                                                                                   also want to acknowledge Fred Weiderhold’s more than 30
                    significantly to improved Amtrak operations.
                                                                                   years of dedicated service to Amtrak, including 20 years as
                    The OIG has several other initiatives under way to             the Amtrak Inspector General. Fred retired in June 2009
                    strengthen our operations and ensure that we operate           with a solid reputation throughout the company of being
                    efficiently and effectively.                                   dedicated to advancing Amtrak’s mission.
                    First, I made two organizational changes to improve            Ted Alves
    Office of       the OIG’s effectiveness and bring its operations closer        Amtrak Inspector General
Inspector General
        4
                                                          Table of Contents




                                                               Report #41
OIG Profile	                                                              7

Amtrak Profile	                                                           10

Significant Activities: Actions Underway to Strengthen OIG Operations 	   11

Significant Activities: Inspections and Evaluations	                      13

Significant Activities: Audits	                                           15

Significant Activities: Investigations	                                   16

Performance Measures	                                                     19

Appendices	                                                               21

Reporting Requirement Index	                                              28




                                                                              Office of
                                                                          Inspector General
                                                                                  5
    OIG Profile




                                                      Vision

                    The Office of Inspector General (OIG) strives to provide Amtrak’s employees,
                    its customers, the public, and the Congress with the highest quality service
                    and programs through vigilance, timely action, accuracy, and an overall
                    commitment to excellence across the broad range of OIG responsibilities.



                                                     Mission

                    The OIG will conduct and supervise independent and objective audits,
                    inspections, evaluations, and investigations relating to Amtrak’s programs
                    and operations; promote economy, effectiveness and efficiency within
                    Amtrak; prevent and detect fraud, waste, and abuse in Amtrak’s programs
                    and operations; review security and safety policies and programs, and, review
                    and make recommendations regarding existing and proposed legislation and
                    regulations relating to Amtrak’s programs and operations.




    Office of
Inspector General
        6
                                                                                                                        OIG Profile


                      Authority

The Inspector General Act of 1978 (Public Law 95-452,                                Quality,
                                                                                    Relevant,
5 U.S.C. Appendix 3), as amended in1988 (P.L. 100-504),                            and Timely
established the Office of Inspector General for Amtrak
to consolidate existing investigative and audit resources
into independent organizations headed by an Inspector                     Independence      Customer
                                                                               and
General (IG) to promote economy, efficiency, and                                             Service
                                                                            Objectivity
effectiveness; and, prevent and detect fraud, waste, and
abuse. Subsequently, the Inspector General Reform Act of                           Respecting
2008 (Public Law 110-409) amended and strengthened                                    and
the authority of the Office of Inspector General to:                Innovation                   Professionalism
                                                                                   Developing
                                                                                     People
H	Conduct and supervise independent and objective
  audits, inspections, evaluations, and investigations,
  relating to Amtrak programs and operations;
                                                              H	Customer Service — Strive to be aware of the needs
H	Promote economy, efficiency, and effectiveness within         of stakeholders and work with Amtrak’s chairman,
  Amtrak and the OIG;                                           the Board of Directors, and the Congress to improve
H	Prevent and detect fraud, waste, and abuse in Amtrak          program management;
  programs and operations;                                    H	Innovation — Be innovative, question existing
H	Make recommendations regarding existing and                   procedures, and suggest improvements. New ideas
  proposed legislation and regulations relating to              and creativity are fundamental to continued growth,
  Amtrak’s programs and operations; and,                        development, and problem solving;
H	Keep the Board of Directors and Congress fully and          H	Respecting and Developing People — Create an
  currently informed of problems in company programs            environment that supports gathering, sharing, and
  and operations.                                               retaining knowledge, fosters treating everyone fairly
                                                                and with mutual respect through words and actions,
        Guiding Principles and Values                           ensures professional growth, and values the diverse
                                                                backgrounds, skills, and perspectives of employees;
OIG principles and values are important because they            and,
form the building blocks used to accomplish its mission       H	Professionalism — Be committed to our professional
and conduct its day-to-day operations:                          standards and will foster relationships with
H	Quality, Relevant, and Timely — Provide valuable and          stakeholders that rely on communication and
  timely service. Work products are high quality, relevant,     cooperation. Relationships with program managers
  timely, and add value and are responsive to the needs         are based on a shared commitment to improving
  of Amtrak, and its stakeholders;                              program operations and effectiveness.
H	Independence and Objectivity — Be committed to carry
  out its mission with objectivity and independence, both
  in appearance and fact. Conflicts, improper influence,
  or other impediments do not interfere with our work;




                                                                                                                               Office of
                                                                                                                           Inspector General
                                                                                                                                   7
    OIG Profile



                                             Office of Inspector General



                                                         Theodore (Ted) Alves
                                                              Inspector General




                                                              Thomas J. Howard
                                                        Deputy Inspector General




                    Dominic (Nick) Pinto                       Calvin E. Evans                      Adrienne R. Rish
                       Acting Assistant
                                                       Assistant Inspector General            Assistant Inspector General
                      Inspector General
                                                       Inspections and Evaluations                   Investigations
                            Audits




                                          Colin C. Carriere                       E. Bret Coulson
                                                                           Assistant Inspector General
                                          General Counsel                   Management and Policy




    Office of
Inspector General
        8
                                                                                                                         OIG Profile



T
         he OIG headquarters is in Washington, D.C.        its assets, and to improve programs and operations
         with seven field offices in Baltimore, Boston,    including contractor activities.
         Chicago, Los Angeles, New York, Philadelphia
and Wilmington, DE. The chart on the previous page         Inspections and Evaluations
reflects the OIG organizational structure.                 The Office of Inspections and Evaluations (I&E) conducts
                                                           targeted inspections and evaluations of Amtrak programs
Inspector General/Deputy Inspector General                 and operations to identify opportunities to improve cost
The Inspector General provides policy direction and        efficiency and effectiveness, and the overall quality of
leadership for Amtrak’s Office of Inspector General        service delivery throughout Amtrak.
and serves as an independent voice to the Chairman
of the Board and Congress by identifying opportunities     Investigations
and promoting solutions for improving the company’s        The Office of Investigations investigates allegations of
performance. The Deputy Inspector General assists the      fraud, waste, abuse, and misconduct that could have an
Inspector General in development and implementation        impact on Amtrak’s programs, operations, assets and
of the OIG’s diverse audit, investigative, legal, and      other resources. Investigative findings are referred to the
support operations                                         Department of Justice for criminal prosecution and civil
                                                           litigation, or to Amtrak management for administrative
General Counsel                                            action. The office develops recommendations to reduce
The General Counsel is responsible for providing legal     Amtrak’s vulnerability to criminal activity.
assistance and advice to OIG senior management
and supports audits, evaluations, special reviews,         Management and Policy
and investigations. Counsel coordinates with outside       The Office of Management and Policy (M&P) provides
attorneys including local and federal agencies and law     financial management, procurement, human capital
enforcement attorneys, and appears in court on behalf of   management,     administrative, and    information
the OIG and its employees.                                 technology support to the OIG.

Audits
The Office of Audits conducts independent and
objective audits and reviews of Amtrak’s programs
and recommends improvements to better safeguard




                                                                                                                                Office of
                                                                                                                            Inspector General
                                                                                                                                    9
    Amtrak Profile



                    T
                            he National Railroad Passenger Corporation,             passenger routes then operated by the freight railroad
                            “Amtrak,” is incorporated under the District of         companies were eliminated.
                            Columbia Business Corporation Act (D.C. Code §
                                                                                    During fiscal year (FY) 2009 Amtrak carried approximately
                    29-301 et seq.) in accordance with the provisions of the
                                                                                    27.2 million passengers on up to 315 daily intercity
                    Rail Passenger Service Act of 1970 (Public Law 91-518).
                                                                                    trains on more than 21,100 route miles serving 513
                    Under the provisions of the Passenger Rail Investment
                                                                                    communities in 46 states, the District of Columbia, and
                    and Improvement Act of 2008 (Public Law 110-432; 49
                                                                                    three Canadian provinces. The first quarter of FY 2010
                    U.S.C. § 24302), Amtrak’s Board of Directors reorganized
                                                                                    saw the best first quarter ridership in Amtrak history
                    and expanded to nine members.
                                                                                    carrying nearly 7.2 million passengers.
                    The company is operated and managed as a for-
                                                                                    In terms of market-share, Amtrak serves 61 percent
                    profit corporation providing intercity rail passenger
                                                                                    of the combined airline-intercity rail market between
                    transportation as its principal business. Congress created
                                                                                    Washington, D.C., and New York City. The market share
                    Amtrak in 1970 to take over, and independently operate,
                                                                                    of the New York-Boston corridor increased from 39
                    the nation’s intercity rail passenger services. Prior to this
                                                                                    percent to 50 percent. And the Los Angeles to San Diego
                    America’s private freight companies ran passenger rail as
                                                                                    market share rose from 73 percent to 97 percent.
                    required by Federal law. Those companies reported they
                    had operated their passenger rail services without profit       More than 800,000 people commute every weekday on
                    for a decade or more. With this in mind, when Amtrak            Amtrak infrastructure or on Amtrak-operated commuter
                    began service on May 1, 1971, more than half of the rail        trains around the country under contracts with state
                                                                                                         and regional commuter authorities.
                                                                                                         Amtrak employs about 19,800
                                                                                                         persons, of whom more than 16,000
                                                                                                         are agreement covered employees.
                                                                                                         These employees work in on-board
                                                                                                         services, maintenance of way,
                                                                                                         police, station and reservations
                                                                                                         services, and other support areas.
                                                                                                         Amtrak owns the right-of-way of
                                                                                                         more than 363 route miles in the
                                                                                                         Northeast Corridor (NEC; including
                                                                                                         Washington, DC-New York City-
                                                                                                         Boston, Philadelphia-Harrisburg,
                                                                                                         and New Haven, CT-Springfield,
                                                                                                         MA) and 97 miles in Michigan.
                                                                                                         Amtrak owns 105 station facilities,
                                                                                                         and is responsible for the upkeep
                                                                                                         and maintenance of an additional
                                                                                                         181 station facilities and 411
                                                                                                         platforms. Amtrak owns 17 tunnels
                                                                                                         and 1,186 bridges.
                                                                                                         Amtrak owns most of the
                                                                                                         maintenance and repair facilities
                                                                                                         for its fleet of about 2,600 cars
                                                                                                         and locomotives. Outside the NEC,
                                                                                                         Amtrak contracts with freight
                                                                                                         railroads for the right to operate
                                                                                                         over their tracks. The host freight
                                                                                                         railroads are responsible for the
                                                                                                         condition of their tracks and for the
                                                                                                         coordination of all railroad traffic.



    Office of
Inspector General
       10
  Significant Activities: Actions Underway to Strengthen OIG Operations


A critical element for ensuring that any Office of Inspector
General (OIG) can effectively perform the independent
oversight role mandated by the Inspector General Act (IG
Act) is a professional and effective working relationship
between the OIG and management.                  With the
appointment of the new Inspector General in November
2009, we have made significant strides in building an
effective working relationship with management and
embarked on several initiatives to strengthen OIG
operations.
New Relationship Policy is Consistent with the
Inspector General Act
On March 4, 2010, Amtrak management and the IG
reached agreement on a new relationship policy. The
policy establishes the responsibility and authority of
the Amtrak OIG, the general principles for ensuring a
productive relationship between the OIG and the rest
of the company, and summarizes the OIG processes for
conducting audits, evaluations, and investigations.
The Fiscal Year 2010 Consolidated Appropriations Act
(Public Law 111-117) called for an Inspector General
(IG) who is a member of the Council of the Inspectors
                                                               National Academy of Public Administration
General on Integrity and Efficiency (CIGIE) to determine
                                                               Engaged to Conduct OIG Organizational
that Amtrak and its IG have agreed on a set of polices
                                                               Assessment
for interacting with each other that are consistent with
the letter and the spirit of the IG Act. Carl Clinefelter,     On March 16, 2010 we completed the Amtrak OIG
Inspector General of the Farm Credit Administration,           Strategic Plan for fiscal years 2010 to 2014. The plan sets
conducted the review required by the Appropriations Act        forth the OIG’s strategic priorities to promote positive
and determined that:                                           change, maximize efficiency and value in our work,
                                                               and lead by example in creating a model organization.
H	The Corporation and the IG have agreed to a set of
                                                               In order to help us achieve those goals, particularly
  policies and procedures for interacting with each other
                                                               creating a model organization, we have engaged the
  that are consistent with the letter and the spirit of the
                                                               National Academy of Public Administration (NAPA) to
  Inspector General Act of 1978, as amended.
                                                               conduct an organizational assessment of the Amtrak
H	As a result, Amtrak and the OIG are now positioned to        OIG. This assessment is intended to help us identify
  build a constructive relationship that will enable the       our core organizational strengths and weaknesses, and
  Amtrak Office of Inspector General (OIG) to operate          then develop specific, prioritized actions to improve OIG
  unhindered in its role of: 1) promoting economy,             processes, policies, and management practices.
  efficiency, and effectiveness; 2) preventing and
                                                               NAPA is a non-profit, independent fellowship comprised
  detecting fraud, waste, and abuse; and, 3) providing a
                                                               of top policy and management leaders, and it has
  means for keeping the head of the entity and Congress
                                                               conducted similar organizational assessments at other
  fully and currently informed about the problems
                                                               OIGs. NAPA understands the unique challenges facing
  and deficiencies relating to Amtrak’s programs and
                                                               IG operations and is equipped to assist us in identifying
  operations.
                                                               our distinct capabilities and obstacles, as well as gaining
H	Amtrak will benefit by having a properly functioning         insight into best practices within the accountability
  OIG that remains independent of Corporation                  community.
  programmatic activities and, thus, able to provide
                                                               The methodology that NAPA is using in conducting
  objective assessments and recommendations
                                                               the assessment includes an online survey to capture
  regarding Amtrak operations.
                                                               input from all OIG staff. NAPA is interviewing selected
The Appropriations Act further provides that one               stakeholders, both internal and external to Amtrak, to
year after the above determination, the CIGIE shall            solicit their views on the impact of the Amtrak OIG’s work
appoint another member to evaluate the operational             and areas where our contributions could be enhanced.
independence of the Amtrak IG.                                                                                                   Office of
                                                                                                                             Inspector General
                                                                                                                                     11
    Significant Activities: Actions Underway to Strengthen OIG Operations


                    The survey addresses work processes, leadership,              performing or reporting in conformity with professional
                    communications and other areas related to working in          standards in one or more aspects. Specifically the peer
                    the Amtrak OIG, and builds upon interviews conducted          review team found that the:
                    with the senior leadership team. In addition, NAPA and
                                                                                  H	quality control system requirements need to be
                    Amtrak OIG staff are meeting with Inspectors General
                                                                                    followed and all quality control requirements need to
                    from other organizations to benchmark best practices
                                                                                    be made mandatory for limited scope audits; and,
                    that maximize their efficiency and effectiveness in audits,
                    inspections and evaluations, and investigations               H	system   for monitoring continuing professional
                                                                                    education (CPE) did not ensure that all audit staff
                    NAPA is scheduled to complete a draft of its organizational
                                                                                    obtained the appropriate CPE credits to meet
                    assessment by the end of July, and to produce a final
                                                                                    Government Auditing Standards requirements.
                    report in August 2010.
                                                                                  Although the Amtrak OIG agreed to completely revise the
                    Actions Taken to Ensure Audit Work Complies
                                                                                  Audit Policy Manual and training policies by March 31,
                    with Government Auditing Standards
                                                                                  2010, those efforts were not completed. Therefore, by a
                    On September 30, 2009, we received a report from              memo dated April 12, 2010, the Amtrak IG implemented
                    the Legal Services Corporation IG’s peer review of the        interim changes in audit processes, quality control, and
                    system of quality control for the audit function of the       training procedures. The IG emphasized that it is the
                    Amtrak OIG. While we received a passing rating it was         policy of the Amtrak OIG that our audit work will comply
                    with deficiencies. A deficiency is one or more finding        with the Government Auditing Standards, 2007 revision.
                    that due to their nature could create a situation in which    We also instituted a revised process for updating our
                    the Amtrak OIG would not have reasonable assurance of         audit and training policies.




    Office of
Inspector General
       12
                                            Significant Activities: Inspections and Evaluations


Training and Employee Development –                           overall corporate strategy and provides employees with
corporate-wide strategies have not been developed to          the skills needed to assume leadership roles in the future.
ensure current decentralized efforts are adequate to
                                                              Management recently agreed with all of our
meet the needs of Amtrak in the future
                                                              recommendations and provided a plan to implement them.
Report E-09-06 – Issued 10/26/2009
                                                              It is important, however, for management to stay focused
We found that training at Amtrak was managed and              on making near-term improvements, because effective
conducted in a largely decentralized manner. In 2008,         training and development practices will be a key component
Amtrak’s 19,000 employees received more than 670,000          of Amtrak’s ability to deliver high quality services.
hours of training, an average of about 35 hours of training
per employee. We estimate that Amtrak spends between          Procurement and
$40 million and $45 million on training each year.            Material Supply Chain Management –
                                                              OIG review of parts supply contract results in additional
During this review, we found many hard-working people
                                                              credit of $1,352,557
involved with training. This resulted in some excellent
training being conducted. However, since training             Amtrak entered into a contract with Alstom TLS in 2006
was decentralized and mainly driven by the individual         to supply and manage the parts inventory for the Acela
department’s requirements, it was not consistently            trainsets. This contract has an estimated value of close
required or delivered throughout the corporation. In          to $200 million over the five-year term. As reported
addition, the decentralization of training at Amtrak          previously, the OIG questioned whether Amtrak was
appears to make training more expensive than at other         getting proper credit for components returned to inventory
similarly sized companies.                                    after bench testing. Based on the OIG’s inquiry, Amtrak
                                                              received a credit of $3,271,074.95 for overcharges during
Part of the reason for the inconsistency between
                                                              the period of September 2007 to August 2008.
departments is that there is no individual or organization
charged with overseeing all training at Amtrak.               Our current analysis and review
Furthermore, there is currently no corporate-wide training    led to an agreement with Alstom          Analysis and
strategy or program to ensure that the efforts are aligned    to provide an additional credit of       review led to
to meet the strategic needs of Amtrak in the future. For      $1,352,557 for overcharges during        $1,352,557 in
the railroad to work effectively, all employees must be       this period. The credit will be             savings.
properly trained to do their jobs, not just those in some     liquidated against future Amtrak
positions at some locations or in some departments.           purchases or settlements.
In addition to the lack of a corporate-wide training
                                                              Amtrak Mechanical Maintenance Operations –
program, there was also no integrated corporate-wide
                                                              Management continues to incur benefits from
career development program for management employees.
                                                              implementing previous recommendations
Over the last 10 years, only once out of eight times has
an internal candidate been selected for an opening in         In September 2005, we issued report E-05-04 on
one of the top three leadership positions in the company      Amtrak’s Mechanical Maintenance Operations. We
(CEO, COO, or CFO) and, at the time of the report, only       recommended that Amtrak adopt a more modern
two of the ten members of the Executive Management            maintenance philosophy based on Reliability-Centered
Committee came from jobs from within Amtrak.                  Maintenance (RCM). An RCM-based program requires
                                                              that all maintenance activities be supported by sound
Without      a      corporate-wide
                                          Corporate           technical and economic justifications. We recommended
management career development
                                      training programs       specific actions that Amtrak should take to transition
program, Amtrak will continue to
                                         will improve         to RCM and to make the operations more efficient. For
be faced with senior managers
                                      senior leadership       the past four and a half years we have been monitoring
who apparently do not have the
                                           potential          the Mechanical Department’s implementation of our
appropriate attributes, education,
                                           of Amtrak          recommendations.
experiences or management skills
needed to assume the senior-most          employees.          One effort that we monitored during this reporting period
leadership roles in the company.                              was with process and manpower utilization improvement
                                                              for turnaround servicing at Amtrak’s major stations.
We made a series of recommendations to improve the
effectiveness and efficiency of training and employee         To date, productivity improvements at five of Amtrak’s
development, focusing on developing and implementing          maintenance locations have generated more than $7
a corporate-wide training and employee development            million in benefits (reduced overtime, vacant positions
strategy. This ensures that training aligns with the          not filled, or labor made available for other work). About        Office of
                                                                                                                            Inspector General
                                                                                                                                   13
    Significant Activities: Audits


                    $3 million of these benefits were reported in previous         recommendations. We estimate, based upon our audit
                    semiannual reports.                                            work during the last 10 years, the potential cost to Amtrak
                                                                                   of not establishing effective and adequate controls over
                    CSX On-time Performance Incentives:                            the OTP incentive review and payment process has cost
                    Inaccurate Invoices and Lack of Amtrak                         Amtrak about $5 million per year on average.
                    Management Review Lead to Overpayments
                                                                                   We recommended that Amtrak management recover the
                    Questioned Costs: $20,052,519
                                                                                   $20,052,519 CSX over billed Amtrak for OTP incentives
                    Audit Report 406-2005 – Issued March 30, 2010
                                                                                   and make the funding commitment and provide a plan
                    CSX Transportation Inc. (CSX) billed Amtrak over $171          with milestone dates for implementing corrective actions.
                    million from April 1993 through April 2004 (our audit          Management agreed with both recommendations and
                    period) of which $34 million was for on-time performance       provided an action plan in April 2010.
                    (OTP) incentives for operating passenger trains on-time
                    more than 80 percent of the time during a month. The           Improvements Needed in Vendor Repair and
                    remainder, $137 million, was for services CSX rendered         Return Process
                    for operating Amtrak passenger trains over its tracks.         Audit Report 04-2008 – Issued March 23,2010
                    The $34 million billed by CSX for OTP incentives is the
                                                                                   Amtrak’s Vendor Repair and Return (R&R) process
                    subject of this report.
                                                                                   includes the replenishment, distribution and disposal
                    CSX has a responsibility to comply with the terms              of train equipment parts/components (parts). One of
                    of the operating agreement by accurately billing               Amtrak’s major initiatives is to maintain its fleet and
                    and supporting the amounts billed for OTP incentive            infrastructure in a state of good repair of which the
                    payments and services. We reviewed all the agreements          vendor R&R process is an essential part. Continuous
                    and corresponding amendments between CSX and                   monitoring and follow-up on open R&R purchase orders
                    Amtrak applicable to the audit period and analyzed the         (POs) with vendors is essential to maintain the Amtrak
                    supporting documents for OTP incentives billed by CSX.         fleet and to ensure on-time performance and reliability.
                                                                                   The Chief Logistics Officer in Procurement manages the
                           Amtrak          We found that CSX over billed
                                                                                   Vendor R&R process.
                       overpaid CSX        Amtrak by $20,052,519 for OTP
                        $20,052,519        incentives. This occurred because       The audit objectives were to determine whether inactive
                        for On-Time        CSX did not bill Amtrak for OTP         (open) purchase orders for R&R parts are closed on a
                       Performance         incentives in compliance with           timely basis and, if internal controls for the R&R processes
                         incentives.       Appendix V of the operations            including warranty repairs are
                                           agreement. Specifically, CSX did        effective. Our scope included R&R           Vendor Repair
                    not provide documentation to support its OTP incentive         expenditures of $7.68 million for            and Return
                    claims and submitted inaccurate claims for departure and       FY 2008.                                     policies and
                    arrival times, and tolerances - such as, station, extra car,                                          procedures need
                                                                                   Our audit disclosed that there
                    recovery time base, miscellaneous, curfew/maintenance                                                  improving.
                                                                                   were 490 open POs for R&R parts
                    of way, and Do Not-Count tolerances claimed.
                                                                                   for FY 2008 that were past the
                    We also found that Amtrak’s Transportation Operations          promised delivery date. This occurred because Amtrak
                    Management group did not perform a complete and                did not have guideline specifying the responsibility for
                    thorough review to verify the OTP incentives billed by         tracking open R&R purchase orders or for following
                    CSX prior to approving them for payment. In our August         up with vendors on the status of overdue part repairs.
                    2008 report, we advised Amtrak that invoices from host         Amtrak’s exposure for not tracking open R&R purchase
                    railroads were not thoroughly reviewed prior to payment.       orders may lead to a delay in the performance of critical
                    Specifically we reported that management controls              maintenance work and the maintenance of higher
                    were inadequate and ineffective and host railroads             inventory levels.
                    had consistently over billed Amtrak. We reported that
                                                                                   Our audit also found contracting agents did not
                    management is responsible for establishing adequate
                                                                                   consistently compare the cost of repairing a part to the
                    systems of internal controls over its operations to provide
                                                                                   price of purchasing a new part. Procurement personnel
                    reasonable assurance that Amtrak’s assets are protected.
                                                                                   follow a procedure, although not written in any policy or
                    We recommended, among other actions, that Amtrak               guideline, that if the cost of repairing a part is less than
                    perform thorough and complete reviews of host railroad         70 percent of the price of a new part, the part should be
                    bills prior to payment. Although management agreed to          repaired. We compared the new price of 15 sample items
                    thoroughly review bills before making payments, nearly         with the cost for repairing items and determined the cost
    Office of       two years later management has not implemented our             of repair for 3 of the 15 items exceeded the 70 percent
Inspector General
       14
                                                                                   Significant Activities: Audits


threshold. We could not make a similar comparison for       American Recovery and Reinvestment Act
15 other sample items because the price of the new part     (ARRA)
had never been entered into the automated procurement       More than one year after receiving $1.3 billion dollars in
system. If the contracting agents do not perform and        stimulus money, Amtrak is aggressively pursuing more
document the appropriate analysis regarding purchasing      than 250 projects to include upgrading infrastructure,
or repairing vendor R&R parts, Amtrak is at risk of not     such as bridges, tunnels, stations and tracks; modernizing
making cost effective decisions which could lead to         its fleet by overhauling and refurbishing existing
higher maintenance costs.                                   locomotives and passenger cars; and implementing new
                                                            computer systems.
Engineering Equipment
                                                            In the coming months, Amtrak’s spending will increase
Audit Report 101-209 – Issued October 23, 2010
                                                            sharply as the weather is more conducive to construction.
Our audit objectives were to determine whether              With so many projects taking place in such a short time
Engineering equipment was safeguarded and used              frame, our office will be even more vigilant in monitoring
effectively; business processes and internal controls       costs and communicating with Amtrak management in an
were effective; and equipment balances were reconciled      effort to identify waste, fraud or abuse of taxpayer money.
to subsidiary records.   Our audit included a sample
                                                            The OIG has initiated several audits of ARRA projects
of 30 pieces of equipment from the Mid-Atlantic
                                                            to assess risk, track and review costs and to monitor
division (Philadelphia to Washington). Our tests in the
                                                            whether Amtrak is receiving the product for which it has
Mid-Atlantic division concluded that the inventory
                                                            contracted and if the expenditures comply with grant
was adequately safeguarded. However,   to ensure
                                                            provisions. We will continue to review projects and
accountability over the equipment and   sustain the
                                                            embark on more audits as work progresses. The OIG
accuracy of records the current business processes need
                                                            received $5 million and has until September 30, 2013 to
to be enhance because the current policy only requires
                                                            complete its work under ARRA.
a complete inventory every four years and   does not
require equipment balances to be reconciled to subsidiary
records. We recommended that physical inventories be         AUDIT STATISTICS
conducted more frequently and include reverse counts,        Status of Audit Projects
whereby items are traced back to subsidiary records.         Audits in progress at 10/01/09	                     59
                                                             Audit projects postponed or cancelled	               7
                                                             Audit projects started 	                            20
Audit Report from Prior Period Withdrawn
                                                             Audit reports issued	                                3
The Attleboro Pawtucket Amendment Audit Report 205-
                                                             Audit projects in progress 3/31/10	                 68
2009 issued September 30, 2009 was withdrawn after a
thorough review of the audit documentation determined
                                                             Audit Findings
that the report was not adequately supported. We have
                                                             Questioned costs	                         $20,052,519
adjusted Appendix 1 and 2 to reflect the revised amount
                                                             Unsupported costs	                                 $0
of both questioned costs and funds to be put to better
                                                             Funds to be put to better use	                     $0
use as of October 1, 2009. We are taking corrective
actions to ensure that our audit work will comply with
                                                             Total	                                   $20,052,519
the Government Auditing Standards, 2007 revision.




                                                                                                                              Office of
                                                                                                                          Inspector General
                                                                                                                                 15
    Significant Activities: Investigations


                                      Theft
                                      Theft and
                                            and Fraud
                                                Fraud                              travel agencies an opportunity to engage directly in
                                                                                   business with Amtrak.
                    Theft Scheme involving Train Provisioning                      As a result of our findings and subsequent
                    Management System Clerk                                        recommendations, Marketing distributed Amtrak’s
                    $109,000 restitution ordered.                                  Ethical Conduct and Conflict of Interest policy for review
                    On December 1, 2009, a former Train Provisioning               by the Marketing and Product Management team.
                    Management System (TPMS) Clerk was sentenced to six
                    months of home confinement on electronic monitoring,                 Abuse of
                                                                                         Abuse of Multiple
                                                                                                  Multiple Amtrak
                                                                                                           Amtrak Assets
                                                                                                                  Assets
                    four years of probation, and ordered to pay approximately
                    $109,000 in restitution to Amtrak. The TPMS Clerk
                                                                                   Management Department Employee Abuses
                    previously pleaded guilty in the United States District
                                                                                   Privileges
                    Court for the Northern District of Illinois Eastern Division
                                                                                   We received information that a Mechanical Department
                    for violating Title 18 USC, Section 666 (a) (1) (A) Theft
                                                                                   management employee was abusing his position by
                    or Bribery Concerning Programs Receiving Federal Funds.
                                                                                   claiming Business Travel privileges on his rail pass
                                                                                   to commute to and from work. The subsequent OIG
                    Theft of Fleet Credit Cards
                                                                                   investigation not only validated the allegation but
                    $74,863 restitution ordered
                                                                                   revealed the employee’s abuse of Amtrak leased vehicles,
                    As a result of a previously reported (Semiannual Report
                                                                                   Amtrak Federal Express services, and multiple types of
                    #40) joint investigation with the Government Services
                                                                                   pass abuse violations.
                    Administration Office of Inspector General regarding
                    the theft of fleet credit cards, two defendants were           As a result of the findings and the associated
                    sentenced in the United States District Court for the state    management referral, the management employee was
                    of Maryland.                                                   terminated on October 29, 2009.
                    The first defendant, a former Amtrak employee, was
                                                                                           Assistance to Another Agency
                    found guilty of one count of Aiding and Abetting the
                    Theft of Government Property (Title 18 USC 641 and
                    642). The former employee was sentenced to three years         Assistance to United States Attorney for the
                    probation with a special condition to reside in a half-way     District of Delaware
                    house for an additional ten months. This defendant was         During this reporting period, we were recognized by
                    also ordered to pay $17,000 in restitution to Amtrak.          the United States Attorney for the District of Delaware
                                                                                   for assisting its agency with the conviction and 30 year
                    The other defendant was found guilty of one count of
                                                                                   prison sentence of an international child predator.
                    Theft of Government Property (Title 18 USC 641) and
                    was sentenced to three years probation and six months
                                                                                            Violation of Firearms Policy
                    home confinement. This defendant was ordered to pay
                    $57,863.73 in restitution to Amtrak.
                                                                                   Engineer and Conductors Violate Firearms
                                    Conflict
                                    Conflict of
                                             of Interest
                                                Interest                           Policy
                                                                                   We received information that Amtrak Train and Engine
                                                                                   personnel were transporting loaded firearms on-board
                    Possible Conflict of Interest Related to Travel
                                                                                   the California Zephyr. An investigation was conducted
                    Agencies
                                                                                   jointly with Amtrak Police Department (APD). Based
                    We received an allegation that a senior management
                                                                                   on the APD findings, the OIG and APD were able to
                    employee in Marketing may have abused his position
                                                                                   substantiate that two conductors and a Superintendent
                    by engaging in a potential conflict of interest situation
                                                                                   of Road Operations had transported loaded firearms on-
                    with a travel agency with which he had a prior business
                                                                                   board their respective trains for the purpose of target
                    relationship. The subsequent investigation revealed
                                                                                   practice.
                    that the senior management employee’s “hands-on”
                    involvement into matters related to this travel agency         The OIG and APD substantiated that another conductor
                    created, at a minimum, an appearance of favoritism.            had stored a shotgun in the Road Foreman’s office. As
                                                                                   a result of the investigation, the Superintendent of Road
                    It appears that this conduct enabled the travel agency to
                                                                                   Operations, Road Foreman, and two Conductors were
                    enjoy exclusivity in a portion of Amtrak’s international
                                                                                   terminated. The Conductor who stored the weapon was
                    travel agency arena for an extended period of time. Prior
                                                                                   suspended for 30 days.
                    to the completion of our investigation, Marketing took
    Office of       steps to ensure that Amtrak afforded other international
Inspector General
       16
                                                                    Significant Activities: Investigations


       Recommendations
       Recommendations to to Enhance
                             Enhance                                          CASE
                                                                               CaseHANDLING
                                                                                   Handling
        Efficiency and Effectiveness
        Efficiency and Effectiveness
                                                             We received allegations from various sources, including
                                                             employees, confidential informants, Congressional
Emergency Exchange Vouchers (EEVs) and Hotel
                                                             sources, federal agencies and third parties. Presently, the
Authorization Forms (HAFs)
                                                             OIG is handling 296 investigations; in the last six months.
We reviewed the issuance of Emergency Exchange
                                                             The OIG opened 142 cases and closed 177 cases.
Vouchers (EEVs) and Hotel Authorization Forms (HAFs)
at Chicago Union Station and issued an Administrative
Report to management recommending several changes             Case Status of Investigations
to safeguard the EEVs and HAFs to protect Amtrak from         10/01/09 – 3/31/10	
unnecessary financial losses. Management has agreed
to conduct and document continuous refresher training         Total Open Cases as of 10/01/09	                   331
sessions related to the proper procedures for issuing         Closed Cases	                                      177
EEVs and HAFs. Management has agreed to secure                Opened Cases	                                      142
blank HAFs, and develop a numbering system to cross
reference reservation numbers with passengers’ names          Total Ongoing Cases as of 3/31/10	                 296
on HAFs.
                                                             As set forth in the chart below, entitled “Sources of
            Revenue Protection Unit                          Allegations,” employee and private citizen referrals
                                                             accounted for about 39 percent of the allegations during
                                                             this reporting period, with private citizens being the
Revenue Protection Union-Initiated Lead
                                                             source of 29 of the 142 allegations, or 20 percent.
Service Attendant Reviews
During this reporting period, in conjunction with mostly     The OIG received 88 HOTLINE complaints during this
random onboard train observations of lead service            reporting period. The majority of HOTLINE complaints
attendants (LSAs), The Revenue Protection Unit (RPU)         received during this reporting period were from private
analyzed the applicable support documentation for            citizens.
on board food and beverage sales for 75 trains. The
completed reviews resulted in 21 administrative referrals     HOTLINE STATISTICS
consisting of various findings covering theft, fraud and
the failure to follow procedures.                             10/01/09 – 3/31/10 	                             TOTAL

At the completion of this reporting period, discipline had    Hotline Complaints Received:	                       88
been assessed, based on these and previous reporting
period RPU referrals, for 19 LSAs, with discipline ranging    Sources of Hotline Complaints:
from termination, suspension or voluntary resignation, to     Private Citizen	                                    54
formal reprimand, remedial training or counseling.            Anonymous Source	                                   18
                                                              Amtrak Employee	                                    11
RPU-Initiated Conductor Reviews                               Former Amtrak Employee	                              2
The RPU conducted random reviews of various                   Federal Law Enforcement	                             2
conductors and assistant conductors assigned to work          Confidential Informant	                              1
the Downeaster trains in New England. The review
revealed widespread patterns of apparent intentional          Complaints Referred To:
disregard for or lack of knowledge of required policy and     Management	                                         58
procedure. Several of these findings have a negative          OI Field Offices	                                   16
impact to Amtrak’s cash position or pose a safety and/        APD	                                                13
or security issue.                                            OIG/ARRA Group	                                      1

In response to the applicable OIG/RPU Administrative
Referral, a response dated November 4, 2009 was
received from northeast corridor service operations. The
response confirmed counseling and refresher training for
28 conductors and assistant Conductors.


                                                                                                                               Office of
                                                                                                                           Inspector General
                                                                                                                                  17
    Significant Activities: Investigations


                    TYPES of Allegations                                                                                 PROSECUTIVE REFERRALS
                    10/01/09 – 3/31/10                                                                                   10/01/09 – 3/31/10
                    Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3                        Referrals	              U.S.	          Local/	         TOTAL
                    Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . 4                                 	                     Attorney	        State
                    Drug Violation  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1                           Criminal Cases
                    False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2                          Indictments	               0	             0	              0
                    False T&A Records . . . . . . . . . . . . . . . . . . . . . . . . .  1                               Convictions/Pleas	         3	             0	              3
                    False Expense Report . . . . . . . . . . . . . . . . . . . . . . .  1                                Pending*	                 15	             0	             15
                    Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1                       Declinations	              0	             0	              0	
                    Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . .  5
                    Mismanagement  . . . . . . . . . . . . . . . . . . . . . . . . . .  6                                TOTAL			                                                 18
                    Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . .  1
                    Administrative Inquiry . . . . . . . . . . . . . . . . . . . . . .  2                                Civil Cases
                    Other Non Criminal . . . . . . . . . . . . . . . . . . . . . . .  41                                 Suits Filed	              0	              0	              0
                    Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . .  20                             Settled	                  0	              0	              0
                    TOTAL  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 88   Pending	                  0	              0	              0	

                                                                                                                         TOTAL			                                                  0

                                                                                                                         TOTAL CIVIL AND CRIMINAL		                               18		
                                                                                                                         	
                                                                                                                         *Some of these will be reflected under pending civil cases because
                                                                                                                         these matters are being handled by the United States Attorney’s
                                                                                                                         Office in parallel proceedings. In cases where there have been
                                                                                                                         convictions or pleas, we may be awaiting sentencing, restitution
                                                                                                                         or other resolutions.




    Office of
Inspector General
       18
                                                                                                                                                    Performance Measures

FY 2009 Performance Measures
10/01/09 – 3/31/10
Audit Results	                                                                                                                                                Total
Congressional Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Costs Questioned/Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $20,052,519
Management Decisions to Seek Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  0

Investigative Results 	                                                                                                                                                     Total
Indictments  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Convictions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Court Ordered Restitutions/Civil Judgments/Administrative Restitution  . . . . . . . . . . . . . . . . . . . . . . . . . . .  $183,863
Recoveries* . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Years Sentenced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Years Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Years Supervised Release . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1.8
Hours of Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Debarments and Other Administrative Action  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  0
Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88
Hotline Complaints Investigated by OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Hotline Complaints Referred to Operating Administrations or Other Agencies  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71
* Recovery totals do not include recoveries made as a result of joint activities with OIG



FY 2010 Advisory Functions
10/01/09 – 3/31/10
Advisory Functions	                                                                                                                                              Total
FOIA Requests Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
FOIA Requests Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Legislation Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Regulations Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0




                                                                                                                                                                                          Office of
                                                                                                                                                                                      Inspector General
                                                                                                                                                                                             19
Appendices




       Office of
   Inspector General
          21
    Appendix 1


                    office of Inspector General
                    Audit Reports Issued with Questioned CostS
                    10/1/09 – 3/31/10
                    	                                                        Number	               Questioned Costs	               Unsupported Costs
                    A.	For which no management decision
                       has been made by the commencement
                       of the reporting period.	                                     2	                    $248,005*	                                 $0

                    B.	Reports issued during the
                    	 reporting period.	                                             1	                  $20,052,519	                                 $0

                    Subtotals (A + B)	                                               3	                  $20,300,524	                                 $0


                    LESS

                    C.	For which a management decision
                    	 was made during the reporting period.	  2
                    	 (i) dollar value of recommendations
                    	 that were agreed to by management.		                                                   $248,005	                                $0
                    	 (ii) dollar value of recommendations
                    	 that were not agreed to by management.		                                               $222,059	                                $0

                    D.	For which no management decision
                    	 has been made by the end of the
                    	 reporting period.	                                             1	                  $20,052,519	                                 $0

                      *Report 205-2009 issued on September 30, 2009 was withdrawn during this reporting period. The questioned cost of $287,927 was
                      subtracted from the amount reported in the prior reporting period.




    Office of
Inspector General
       22
                                                                                                                                          Appendix 2


office of Inspector General
Audit Reports Issued with funds to be put to better use
10/1/09 – 3/31/10
	                                                                                          Number	                      Dollar Value
A.	For which no management decision
   has been made by the commencement
   of the reporting period.*	                                                                      0	                                0

B.	Reports issued during the
	 reporting period.	                                                                               0	                                0

Subtotals (A + B)	                                                                                 0	                                0


LESS

C.	For which a management decision
	 was made during the reporting period.	  0	                                                                                         0
	 (i) dollar value of recommendations
	 that were agreed to by management.	     0	                                                                                         0
	 (ii) dollar value of recommendations
	 that were not agreed to by management.		

D.	For which no management decision
	 has been made by the end of the
	 reporting period.	                                                                               0	                                0

  *Report 205-2009 issued on September 30, 2009 was withdrawn during this reporting period. The dollar value $44,706,930 was subtracted
  from the amount reported in the prior reporting period.	




                                                                                                                                                 Office of
                                                                                                                                             Inspector General
                                                                                                                                                    23
    Appendix 3


                    Office of inspector General
                    detailed listing of all issued audit reports
                    10/1/09 – 3/31/10
                    Date	        Report	 Report Title	                             Questioned	 Unsupported	 Funds to be Put
                    Issued	      Number		                                               Costs	       Costs	   to Better Use

                    10/23/2009	 101-2009	 Engineering Equipment	                          $0 	          $0 	            $0
                    3/19/2010	 104-2008	 Audit of Vendor Repair and Return	               $0 	          $0 	            $0
                    3/30/2010	 406-2005	 CSX: On-Time Performance Incentives	   $20,052,5190 	          $0 	            $0
                    TOTALS			                                                   $20,052,5190 	          $0 	            $0




    Office of
Inspector General
       24
                                                                                                              Appendix 4


office of Inspector General
management’s commitment to seek final action on audits with agreed
questioned costs and funds to be put to better use (fbptbu)
10/1/09 – 3/31/10
	                                             Number	                      Questioned	 Number	      FBPTBU
		                                                                              Costs		
A.	Agreed Questioned Costs and FBPTBU
   for which management action is needed
   at the beginning of the reporting period.	     15	                     $79,781,559	      2	   $3,832,254

B.	Agreed Questioned Costs and FBPTBU
	 for which management action is needed
   during the reporting period.	                                    2	      $248,005	

Subtotals (A + B)	                                                 17	    $80,029,564	      2	   $3,832,254


C.	Management actions taken during the
   reporting period.	                              5		           1
	 (1) Collections (Cost recovery)		                    $515,627	
	 (2) Cost avoidance (Contracts)				
   (3) Adjusted material value (Inventory parts)				
   (4) Future cost savings (Improved management
   controls)
   (5) Management reduction of costs (Negotiation)
   (6) More efficient use of funds (FBPTBU)
   (7) Management reduction of costs (Additional
   evidence
   (8) Management unwilling to pursue		              $77,038,184
   (9) Management unwilling to pursue (FBPTBU)				                                               $3,748,758

Subtotals (1 – 9) of management actions		                                 $77,553,811		          $3,748,758


D.	Agreed Questioned Costs and FBPTBU for
   which management action is needed at the
   end of the reporting period. 	                                  12	     $2,475,753 	     1	     $83,496

Notes: *Questioned Costs include both Supported and Unsupported Costs.
Includes management actions pertaining to reports previously published.




                                                                                                                     Office of
                                                                                                                 Inspector General
                                                                                                                        25
    Appendix 5


                    OFFICE OF INSPECTOR GENERAL
                    SUMMARY OF REPORTS TO THE PRESIDENT OF AMTRAK CONCERNING INFORMATION OR
                    ASSISTANCE UNREASONABLY REFUSED OR NOT PROVIDED
                    10/1/09 – 3/31/10
                    Nothing to report this period.




    Office of
Inspector General
       26
                                                                                                                           Appendix 6


OFFICE OF INSPECTOR GENERAL
REVIEW OF LEGISLATION AND REGULATIONS
10/1/09 – 3/31/10
Section (4)a of the Inspector General Act of 1978, as amended, provides that the Inspector General shall “review
existing and proposed legislation and regulations relating to programs and operations of such establishment and
to make recommendations in the semiannual reports …concerning the impact of such legislation or regulations
on the economy and efficiency in the administration of programs and operations administered or financed by such
establishment or the prevention and detection of fraud and abuse in such programs and operations.”
Furthermore, Section 4(a) states that it is “the duty and responsibility of the Inspector General “to recommend policies
for, and to conduct, supervise, or coordinate relationships between such establishment and other Federal agencies,
State and local governmental agencies, and nongovernmental entities with respect to (A) all matters relating to the
promotion of economy and efficiency in the administration of, or the prevention and detection of fraud and abuse in,
programs and operations administered or financed by such establishment, or (B) the identification and prosecution
of participants in such fraud or abuse.”
There were no legislation or regulations reviewed during reporting period.




                                                                                                                                  Office of
                                                                                                                              Inspector General
                                                                                                                                     27
    Appendix 7


                    GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
                    The terms the OIG use in reporting audit statistics are defined below:
                    Questioned Cost -- Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
                    alleged violation of Amtrak’s corporate policy or procedure.
                    Unsupported Cost -- Cost that is not supported by adequate documentation at the time of the audit.
                    Funds to Be Put to Better Use -- Funds identified in an audit that could be used more effectively by taking greater
                    efficiency measures.
                    Management Decision -- Management’s evaluation of the OIG audit finding and its final decision concerning
                    agreement or non agreement with the OIG recommendation.
                    Abbreviations/acronyms used in the text are defined below:

                    APD	     Amtrak Police Department                            IG Act	     Inspector General Act
                    ARRA 	   American Recovery and Reinvestment Act of 2009      MCCS	       Manual Credit Card System
                    CEO 	    Chief Operating Officer                             NAPA        National Academy of Public Administration
                    CFO	     Chief Financial Officer                             LSA 	       Lead Service Attendant
                    CIGIE    Council of the Inspectors General                   OIG 	       Office of Inspector General
                    	        on Integrity and Efficiency                         OMB	        Office of Management and Budget
                    COO	     Chief Operating Officer                             OTP 	       On-time Performance
                    CPE	     Continuing Professional Education                   NEC	        Northeast Corridor
                    DNC	     Do Not-Count                                        P.L. 	      Public Law
                    EEV	     Emergency Exchange Voucher                          R&R	        Repair and return
                    FY 	     Fiscal Year                                         RCM 	       Reliability-centered Maintenance
                    GAO	     Government Accountability Office                    RPU 	       Revenue Protection Unit
                    GSA 	    Government Services Administration                  TPMS	       Train Provisioning Management System
                    HAF 	    Hotel Authorization Form                            U.S.C.	     United States Code
                    IG	      Inspector General




    Office of
Inspector General
       28
                                                                                       Reporting Requirements Index


INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT
AMENDMENTS OF 1988 (P.L. 100-504)

Topic	               Reporting Requirements	                                                        Page

Section 4(a)(2)	     Review of Legislation and Regulations 	                                          24

Section 5(a)(1)	     Significant Problems, Abuses, and Deficiencies 	                               11-15

Section 5(a)(2) 	    Recommendations for Corrective Action to Significant Problems 	                11-13

Section 5(a)(3) 	    Previous Reports’ Recommendations for Which Corrective Action
	                    Has Not Been Completed	                                                          n/a

Section 5(a)(4) 	    Matters Referred to Prosecutive Authorities 	                                  14-15

Section 5(a)(5) 	    Information or Assistance Refused or Not Provided 	                              24

Section 5(a)(6) 	    Audit Reports Issued in This Reporting Period 	                                  22

Section 5(a)(7)	     Summary of Significant Reports 	                                               11-13
Section 5(a)(8)	     Audit Reports with Questioned Costs 	                                            12

Section 5(a)(9) 	    Audit Reports with Recommendations That Funds Be Put to Better Use 	             n/a

Section 5(a)(10) 	   Previous Audit Reports Issued with No Management Decision Made by
	                    End of This Reporting Period	                                                    n/a

Section 5(a)(11) 	   Significant Revised Management Decisions 	                                       n/a

Section 5(a)(12) 	   Significant Management Decisions with Which the OIG is in Disagreement	          n/a
    Tell Us About It


                    Stop Fraud, Waste, Mismanagement, and Abuse
                    Who pays? You pay. Act like it’s your money…it is!

                                                                      Tell Us About It
                    Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak. Amtrak’s Office of
                    Inspector General has a toll free hotline number for you to call. You can write to the OIG.
                    The OIG will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from
                    reprisal by your employer.


                                                                    Call the hotline:
                    Nationwide (800) 468-5469
                    Philadelphia (215) 349-3065 or ATS 728-3065

                                                                         Write to us:
                    Inspector General
                    P.O. Box 76654
                    Washington, DC 20013-6654




    Office of
Inspector General
       30
              National Railroad Passenger Corporation
                       Office of Inspector General
      10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285


         Amtrak is a registered service mark of the National Railroad Passenger Corporation.
*Information on Amtrak environmental impacts and initiatives can be found at Amtrak.com/whistlestop.
